U.S. SECURITIES AND EXCHANGE COMMISSION       OFFICE OF INSPECTOR GENERAL




Controls Over the SEC’s Inventory of Laptop
Computers




                                                      September 22, 2014
                                                          Report No. 524

                                          i
                                           UNITED STATES
                            SECURITIES AND EXCHANGE COMMISSION
                                       WASHINGTON, D.C. 20549
    OFFICE OF
INSPECTOR GENERAL


                                      MEMORANDUM

                                       September 22, 2014


TO:           Jeffery Heslop, Chief Operating Officer, Office of the Chief Operating Officer

FROM:         Carl W. Hoecker, Inspector General, Office of Inspector General

SUBJECT: Controls Over the SEC’s Inventory of Laptop Computers, Report No. 524

Attached is the Office of Inspector General’s (OIG) final report detailing the results of our audit
of the U.S. Securities and Exchange Commission’s (SEC) controls over its inventory of laptop
computers. The report contains four recommendations for corrective action that, if fully
implemented, should strengthen the SEC’s inventory controls over its laptop computers.

On September 4, 2014, we provided you with a draft of our report for review and comment. In
your September 16, 2014, response, you concurred with our recommendations. We have
included your response as Appendix III in the final report.

Within the next 45 days, please provide the OIG with a written corrective action plan that
addresses the recommendations. The corrective action plan should include information such
as the responsible official/point of contact, timeframe for completing required actions, and
milestones identifying how your office will address the recommendations.

We appreciate the courtesies and cooperation extended to us during the audit. If you have
questions, please contact me or Rebecca L. Sharek, Deputy Inspector General for Audits,
Evaluations, and Special Projects.

Attachment


cc:    Mary Jo White, Chair
       Erica Y. Williams, Deputy Chief of Staff, Office of the Chair
       Luis A. Aguilar, Commissioner
       Paul Gumagay, Counsel, Office of Commissioner Aguilar
       Daniel M. Gallagher, Commissioner
       Benjamin Brown, Counsel, Office of Commissioner Gallagher
       Michael S. Piwowar, Commissioner
       Mark Uyeda, Counsel, Office of Commissioner Piwowar
       Kara M. Stein, Commissioner
       Robert Peak, Advisor to the Commissioner, Office of Commissioner Stein
Anne K. Small, General Counsel, Office of the General Counsel
Timothy Henseler, Director, Office of Legislative and Intergovernmental Affairs
John J. Nester, Director, Office of Public Affairs
Thomas A. Bayer, Director, Office of Information Technology
Pamela C. Dyson, Deputy Director, Office of Information Technology
Rhea Kemble Dignam, Regional Director, Office of the Regional Director, Atlanta
  Regional Office
Roderick Goodwin, Assistant Regional Director, Office of the Assistant Regional
  Director for Operations, Atlanta Regional Office
Julie K. Lutz, Regional Director, Office of the Regional Director, Denver Regional
  Office
Christopher Friedman, Assistant Regional Director, Office of the Assistant
  Director of Regional Operations, Denver Regional Office
Andrew Calamari, Regional Director, Office of the Regional Director, New York
  Regional Office
Darlene L. Pryor, Management and Program Analyst, Office of the Chief
  Operating Officer
U.S. SECURITIES AND EXCHANGE COMMISSION                                            OFFICE OF INSPECTOR GENERAL



Executive Summary                                Controls Over the SEC’s Inventory of Laptop
                                                 Computers
                                                 Report No. 524
                                                 September 22, 2014

 Why We Did This Audit                    What We Found
 Laptop computers (laptops) are           To evaluate the SEC’s IT inventory program and its controls over
 portable and easy to conceal and         laptops, we reviewed a statistical sample of 244 laptops assigned to the
 often contain sensitive information.     SEC’s headquarters and 3 of its regional offices. We also reviewed a
 Consequently, they are at risk of        judgmental sample of an additional 244 laptops assigned to those
 loss and theft and must be properly      offices, for a total of 488 laptops reviewed. We determined that the SEC
 safeguarded and accounted for. To        had addressed prior OIG recommendations about laptop accountability
 support the agency’s mission,            and has controls for safeguarding laptops throughout their lifecycles.
 employees and contractors of the         However, we identified needed improvements.
 U.S. Securities and Exchange             Specifically, the SEC’s IT inventory contained incorrect information for a
 Commission (SEC) use laptops,            significant number of laptops. For example, Office of Information
 some of which process and store          Technology (OIT) management decided not to update the inventory to
 commercially valuable, market-           reflect the correct location of 921 laptops that had been located at the
 sensitive, proprietary, and other        Operations Center, which the SEC closed in October 2013. OIT plans to
 nonpublic information. However,          update the location information for these assets when the ongoing
 recent Office of Inspector General       agencywide inventory is complete. The inventory also included incorrect
 (OIG) investigative and review work      location information for 82 (or about 17 percent) of the 488 laptops we
 identified weaknesses in the SEC’s       reviewed, and incorrect user information for 105 (or about 22 percent) of
 laptop inventory records and             the 488 laptops we reviewed. In addition, 24 laptops could not be
 encryption controls. We initiated        accounted for, and 4 laptops were in the custody of users although the
 this audit to evaluate the               assets were not included in the inventory. Finally, the SEC’s procedures
 effectiveness of the agency’s            for sharing information about lost or stolen laptops were inadequate.
 information technology (IT) inventory
 program and its controls over            These weaknesses existed because personnel did not always
 laptops.                                 understand their roles and responsibilities, and related policies and
                                          procedures were inadequate, had not been effectively communicated,
                                          and were not consistently followed. As a result of our testing, we
 What We Recommended
                                          questioned the reliability of the SEC’s IT inventory and estimated that it
 OIT is undertaking an agencywide         may reflect incorrect information for over 1,000 laptops. Furthermore,
 IT inventory, which includes laptops,    we estimated that as many as 202 laptops assigned to the locations we
 and plans to replace its IT inventory    reviewed may be unaccounted for. By not ensuring that inventory
 management system. However,              records are accurate and that all laptops are accounted for, the SEC is
 additional actions are needed to         not consistently safeguarding sensitive assets and may be unaware of
 improve the agency’s controls over       lost or stolen laptops. In the event that lost, stolen, or otherwise
 laptops. We made four                    unaccounted-for laptops are not protected by encryption software, which
 recommendations for corrective           we reported as a finding in our May 2014 Review of the SEC’s Practices
 action that address policies and         for Sanitizing Digital Information System Media (Report No. 521), the
 procedures for maintaining               SEC is at risk for the unauthorized release of sensitive, nonpublic
 inventories of laptops; coordination     information.
 between OIT organizations;
 notifications about unaccounted-for      We also identified a lack of segregation of duties and compensating
 laptops; and a review of IT inventory    controls in the SEC’s IT inventory management system. Specifically, at
 management system user                   least 88 employees and contractors with access to and custody of
 accountability. Management               laptops also have the ability to delete asset records from the inventory
 concurred with the                       database. This creates opportunities for the misappropriation of laptops
 recommendations, which will be           without management’s knowledge.
 closed upon completion and              For additional information, contact the Office of Inspector General at
 verification of corrective action.      (202) 551-6061 or http://www.sec.gov/about/offices/inspector_general.shtml.

                                                           i
U.S. SECURITIES AND EXCHANGE COMMISSION                                                            OFFICE OF INSPECTOR GENERAL



TABLE OF CONTENTS
Executive Summary ..................................................................................................... i

Background and Objectives .......................................................................................1
          Background ................................................................................................................. 1
          Objectives .................................................................................................................... 6

Results ........................................................................................................................7
          Finding 1: The SEC’s Laptop Inventory Controls Need Improvement .......................... 7
          Recommendations, Management’s Response, and Evaluation of Management’s
             Response ............................................................................................................. 15

          Finding 2: Lack of Segregation of Duties and Compensating Controls in the ITSM
             System ................................................................................................................. 17
          Recommendation, Management’s Response, and Evaluation of Management’s
             Response ............................................................................................................. 17

Tables and Figure
          Table 1. Distribution of SEC Laptops by Location ....................................................... 1
          Figure. Lifecycle of an SEC Laptop ............................................................................. 5
          Table 2. Statistical Sampling: Summary of Existence Testing Results and
             Projections of Incorrect IT Inventory Information by Location ................................ 10
          Table 3. Judgmental Sampling: Summary of Completeness Testing Results and
             Incorrect IT Inventory Information by Location ...................................................... 11
          Table 4. Statistical Sampling: Summary and Projections of Unaccounted-for
             Laptops by Location.............................................................................................. 12

Appendices
          Appendix I. Scope and Methodology ......................................................................... 19
          Appendix II. Federal Laws and Guidance and SEC Administrative Regulations,
             Policies, and Procedures ...................................................................................... 24
          Appendix III. Management Comments ....................................................................... 26
          Appendix IV. OIG Response to Management Comments .......................................... 28



ABBREVIATIONS
AMB                            Asset Management Branch
ARO                            Atlanta Regional Office
CSIRC                          Computer Security Incident Response Center
DRO                            Denver Regional Office
GAO                            Government Accountability Office
IT                             information technology
ITSM                           Information Technology Service Management
laptop                         laptop computer



REPORT NO. 524                                                       ii                                          SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                   OFFICE OF INSPECTOR GENERAL


NYRO                 New York Regional Office
OIG                  Office of Inspector General
OIT                  Office of Information Technology
OMB                  Office of Management and Budget
Rev.                 Revision
RFID                 radio frequency identification
SEC                  U.S. Securities and Exchange Commission
SECR                 SEC Administrative Regulation




REPORT NO. 524                            iii                      SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                                             OFFICE OF INSPECTOR GENERAL



                            Background and Objectives

Background
Because of their portability, ease of concealment, and the sensitivity of the information
they often contain, laptop computers (laptops) are at risk of loss and theft and must be
properly safeguarded and accounted for. To support the agency’s mission, employees
and contractors of the U.S. Securities and Exchange Commission (SEC) use laptops –
some of which process and store nonpublic information1 – in their offices, at alternate
work locations, and while on official travel. According to the SEC’s Information
Technology Service Management (ITSM) system, as of April 1, 2014, the agency’s
information technology (IT) inventory included a total of 5,525 laptops distributed to
users at the SEC’s headquarters in Washington, D.C., its Operations Center (which the
SEC closed in October 2013),2 its 11 regional offices,3 and its 2 data centers. Table 1
describes the purported distribution of these laptops.

                       Table 1. Distribution of SEC Laptops by Location
                                                    Number of          Percentage of
                           SEC Location              Laptops               Total

                            Headquarters                    2,795              50.59%

                          Operations Center                  921               16.67%

                           Regional Offices                 1,726              31.24%

                            Data Centers                        2                   .04%

                             No Location
                                         4
                              Identified                      81                1.47%
                                                                                        a
                                         Total              5,525            100.01%
                       Source: The SEC’s ITSM system as of April 1, 2014.
                       a
                         The total percentage does not equal 100 due to rounding.



1
 SEC Administrative Regulation SECR 23-2a, Safeguarding Non-Public Information, January 21, 2000,
defines nonpublic information as “information generated by or in the possession of the SEC that is
commercially valuable, market sensitive, proprietary, related to an enforcement or examination matter,
subject to privilege, or otherwise deemed non-public by a division director or office head, and not
otherwise available to the public.”
2
 In October 2013, the SEC closed the Operations Center located in Alexandria, Virginia, and moved
personnel and the assets assigned to those personnel, including laptops, to the agency’s headquarters.
3
 The SEC’s regional offices are located in Atlanta, Boston, Chicago, Denver, Fort Worth, Los Angeles,
Miami, New York, Philadelphia, Salt Lake City, and San Francisco.
4
    The SEC’s ITSM system did not include a physical location for these 81 laptops.




REPORT NO. 524                                          1                                    SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                                  OFFICE OF INSPECTOR GENERAL


In March 2008, the Office of Inspector General (OIG) reported that the SEC did not
effectively account for laptops. As stated in Inspection Report No. 441, Controls Over
Laptops, we found that the SEC’s property management guidance did not identify
laptops as sensitive property,5 and the SEC’s Office of Information Technology (OIT)
had not performed an SEC-wide baseline inventory of laptops since 2003. Because
there was no baseline inventory, the OIG was unable to trace custody of laptops to
specific individuals. As a result, we made five recommendations to strengthen controls
over the SEC’s laptop inventory. Management concurred with the recommendations
and implemented corrective actions, including designating laptops as sensitive property
and developing a methodology for accounting for sensitive property such as laptops.6
However, in August 2013, the OIG began investigating reports of stolen SEC laptops
and identified inaccurate inventory records.

Federal Guidance. The Office of Management and Budget (OMB) Circular A-123,
Management’s Responsibility for Internal Control, establishes guidance for internal
control in Federal agencies. According to the Circular, Federal managers are
responsible for establishing and maintaining internal control to achieve the objectives of
(1) effective and efficient operations, (2) reliable financial reporting, and (3) compliance
with applicable laws and regulations. The safeguarding of assets is a subset of these
objectives. Specifically, Federal managers should design controls to provide
reasonable assurance of preventing or promptly detecting unauthorized acquisition,
use, or disposition of assets.7 Therefore, the SEC’s controls over laptops should be
designed to provide reasonable assurance that laptops support the agency’s mission
and are safeguarded throughout their lifecycles.

SEC Administrative Regulations, Policies, and Procedures. Various SEC property
management and IT administrative regulations, policies, and procedures address
controls over the agency’s laptops. The documents establish roles and responsibilities
for laptop inventory management and describe the agency’s asset management
information systems. The agency’s primary property management directive is SEC
Administrative Regulation SECR 09-02, Revision (Rev.) 1, Property Management
Program (SECR 09-02), which designates laptops as sensitive property. Additional
policies and procedures that establish controls over laptops and asset management
include, but are not limited to, the following:




5
  According to SEC Administrative Regulation SECR 09-02, Revision 1, Property Management Program,
September 11, 2012, the SEC defines “sensitive property” as “items designated by [Office of Information
Technology] Information Security to have characteristics deemed sensitive from a data perspective and
vital to continued operations and, if lost, could negatively affect the agency’s image.”
6
 U.S. Securities and Exchange Commission, Office of Inspector General, Inspection Report No. 441,
Controls Over Laptops, March 31, 2008. The report can be accessed at:
http://www.sec.gov/oig/reportspubs/ir441.pdf.
7
 OMB Circular A-123 Revised, Management’s Responsibility for Internal Control, December 21, 2004,
Attachment pp. 6 and 7.




REPORT NO. 524                                     2                                SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                                  OFFICE OF INSPECTOR GENERAL


         SEC ISS-AM-PD-0022, AMB Receiving Procedure (Draft), July 12, 2013;

         SEC ISS-AM-PD-0022, Maintenance, Repair, and Return Material Authorization
          Procedure (Draft), July 29, 2013; and

         SEC OIT, Security Operations, SEC Incident Response Capability Handbook,
          April 2014.

Appendix II lists other relevant SEC policies and procedures.

       Roles and Responsibilities. According to the SEC’s regulations, policies, and
procedures, several offices within the OIT share responsibility for maintaining
accountability for the agency’s laptops. These offices include the OIT’s Asset
Management Branch (AMB), the Computer Security Incident Response Center
(CSIRC), and the Service Desk. The AMB is responsible for receiving physical assets
including laptops, updating the SEC’s inventory records, and ensuring that laptops are
managed according to sensitive property requirements.8 The CSIRC is responsible for
responding to information system security incidents such as reports of lost or stolen
laptops.9 And the Service Desk is responsible for collecting requests for additional IT
assets including laptops and updating the ITSM system.10

        SEC directors, office heads, and regional office IT Specialists are also
responsible for maintaining accountability for laptops. Specifically, directors and office
heads are responsible for maintaining control over property assigned to their respective
organizations, including sensitive property such as laptops.11 Regional office IT
Specialists are responsible for the shipment, receipt, and distribution of IT assets
(including laptops) returned for maintenance as well as for notifying the AMB of their
actions and updating the ITSM system accordingly.12 SEC employees and contractor
staff are responsible for ensuring the proper use, care, and protection of all personal
property (including laptops) in their possession, and for reporting immediately to
supervisors any personal property that is lost, missing, damaged, or destroyed.13

        Asset Management Information Systems Used to Track Laptops. In addition to
assigning roles and responsibilities, SEC policies and procedures describe the following
systems used for asset management: the ITSM system, RF Code™, and Computrace®.
These systems are used to collect and track data such as a laptop’s asset tag number,
serial number, manufacturer, location, and assigned employee, and can assist in
locating lost or stolen assets. Collectively, each laptop’s asset tag number, serial
8
    SEC ISS-AM-PD-0022, p. 2, and SECR 09-02, Section 1-6 N.2, p. 12 and Section 6-2 E, p. 31.
9
  Securities and Exchange Commission, Office of Information Technology, Security Operations, SEC
Incident Response Capability Handbook, April 2014, p. 1.
10
     SECR 09-02, Section 1-5, p. 6, and Section 2-4 A, p. 16.
11
     SECR 09-02, Section 1-6 F, p. 8, and Section 6-2 E.1, p. 31.
12
     SEC ISS-AM-PD-0022, p. 2.
13
     SECR 09-02, Section 1-6 P, p. 14.




REPORT NO. 524                                        3                            SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                        OFFICE OF INSPECTOR GENERAL


number, and RF Code™ create a unique identifier that is used to track the asset
throughout its lifecycle.

The ITSM system is considered the SEC’s IT inventory management system 14 and
primary mechanism for ensuring accountability for the agency’s IT assets, including
laptops. The system contains a record of each SEC IT asset with a purchase price
greater than $350. The system includes a subcomponent called the Configuration
Management Database, which is used to baseline and manage the inventory of all IT
assets, including laptops. It also has an IT ticketing component that the OIT’s Service
Desk uses to request maintenance and repair of IT assets and to track assets when
changes in custody occur during the lifecycle of the asset.15

The SEC also uses RF Code™ and Computrace® to manage and track IT assets such
as laptops. These two systems play key roles in locating lost or stolen laptops. RF
Code™ is comprised of radio frequency identification (RFID) transmitters, RFID readers,
and a database. Before entering laptops in the SEC’s inventory, OIT staff mount an
RFID transmitter on each asset. Staff then enter each laptop’s unique identifier into the
RF Code™ database along with the unique tag number from the assigned RFID
transmitter. RFID readers located throughout the SEC’s headquarters and regional
offices read the active transmissions from the laptops’ RFID transmitters, thereby
providing real-time location information about the laptops within each SEC facility.

Computrace® is also installed on a laptop before it is issued to an end user. When a
user logs into an internet service provider, the Computrace® software will report to the
SEC the user’s identification and the laptop’s location. Computrace® complements RF
Code™ by providing real-time position and user information for laptops outside of the
SEC’s facilities and, therefore, outside the range of the RFID readers. During our
testing of the accuracy and completeness of the ITSM system, we were able to locate
several laptops with RF Code™ and Computrace® that we could not locate using the
ITSM system alone.

Lifecycle of an SEC Laptop. SEC laptops pass through several stages from initial
receipt from a manufacturer to disposal. The figure below illustrates each stage, the
necessary inventory updates that should occur during each stage, the types of
information that should be collected, the system(s) that should be updated, and the
office responsible for completing the updates.




14
     SECR 09-02, Section 1-5, p. 6.
15
     SECR 09-02, p. 6.




REPORT NO. 524                              4                           SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                                                                                              OFFICE OF INSPECTOR GENERAL


Figure. Lifecycle of an SEC Laptop

Responsible Office:          AMB                       AMB                       AMB                    Service Desk/Regional IT Specialist              AMB




                        Receive laptops from                                                              Service Desk or regional             At the end of its useful
                       the manufacturer and                            Issue laptop to Service                                                    life, the laptop is
                                               Laptops are stored in                                       IT Specialist issue the
                          add them to the                                Desk or regional IT                                                   scheduled for disposal
                                                  the warehouse                                            laptop to an end-user
                             inventory                                        Specialist
     Lifecycle Stage




                                                                          Computrace® is            The released laptop has a status
                            Affix laptop
                                                                          installed prior to         change (new end-user, repair,
                           tracking tags
                                                                            releasing the                  change in location,
                                                                               laptop                      maintenance, etc.)



                                                                                                         Service Desk or regional IT
                                                                                                        Specialist updates the asset
                                                                                                         record in the inventory to
                                                                                                         reflect the status change.
     Data Collected




                          Numbers from                                                                                                             Tracking tags
                          the OIT/Asset              Laptop                     Laptop                              End user’s                  numbers, end user’s
                           tag and the              location                   location                             name and                    name and location,
                              RFID                information                information                             location                    and Computrace®
                           transmitter                                                                                                                license




                                                                                                                                                    Information
   OIT Systems




                         Information
                                                 Information              Information                             Information
    Updated




                         Technology                                                                                                              Technology Service
                                                 Technology            Technology Service                         Technology                      Management,RF
                            Service
                                                    Service             Management and                               Service                        Code™, and
                        Management
                                                 Management              Computrace®                              Management                       Computrace®
                        and RF Code™




Source: OIG generated. Legend: Process                                 Sub-process               Data             Database




REPORT NO. 524                                                                           5                                                    SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                        OFFICE OF INSPECTOR GENERAL



Objectives
Our objective was to evaluate the effectiveness of the SEC’s IT inventory program and
its controls over laptops. Specifically, we sought to

      determine whether the OIT had established policies, procedures, and supporting
       documentation to properly identify, track, and safeguard the SEC’s laptops
       throughout their lifecycles;

      evaluate the SEC’s procedures for receiving laptops and adding them to the IT
       inventory;

      evaluate the SEC’s procedures for updating the status of laptops in the IT
       inventory;

      evaluate the SEC’s procedures for reporting lost or stolen laptops;

      assess the IT controls over the information systems used to track laptops; and

      evaluate whether the SEC effectively addressed prior recommendations for
       corrective action from the OIG’s Inspection Report No. 441, Controls Over
       Laptops.

To accomplish our objectives, we selected from the SEC’s IT inventory a statistical
sample of 244 laptops. We also selected a judgmental sample of an additional
244 laptops, for a total of 488 laptops reviewed. We chose to select assets assigned to
the SEC’s headquarters and 3 of its 11 regional offices: the Atlanta Regional Office
(ARO), the Denver Regional Office (DRO), and the New York Regional Office (NYRO).
According to the ITSM system, there were a total of 3,601 laptops assigned to these
locations, or about 65 percent of the SEC’s total population of 5,525 laptops as of
April 1, 2014.

Appendices I and II include additional information on our scope and methodology;
review of internal controls; sampling methodology; prior coverage; and the applicable
Federal laws and guidance and SEC regulations, policies, and procedures.




REPORT NO. 524                              6                           SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                                     OFFICE OF INSPECTOR GENERAL



                                              Results

Finding 1: The SEC’s Laptop Inventory Controls Need
Improvement
To ensure that assets are properly safeguarded, OMB Circular A-123 requires Federal
managers to establish controls that provide reasonable assurance of preventing or
promptly detecting unauthorized acquisition, use, or disposition of assets.16 We
determined that the SEC had addressed the OIG’s prior recommendations about laptop
accountability. In addition, the agency has policies, procedures, and IT systems for
identifying, tracking, and safeguarding sensitive property, including laptops, throughout
their lifecycles. The procedures include controls for receiving laptops, maintaining
inventory records, and reporting lost or stolen laptops. Finally, the SEC’s primary
mechanism for ensuring accountability for its laptops is the ITSM system. However, we
identified needed improvements in the SEC’s IT inventory program and controls over its
laptops. Specifically, we determined the following:

         The SEC’s IT inventory contained incorrect information for a significant number
          of laptops. For example, OIT management decided not to update the inventory
          to reflect the correct location of 921 laptops that had been located at the
          Operations Center, which the SEC closed in October 2013. OIT plans to update
          the location information for these assets when the ongoing agencywide inventory
          is complete. The inventory also did not specify a location for another 81 laptops.
          Finally, the inventory included incorrect location information for 82 (or about
          17 percent) of the 488 laptops we reviewed and incorrect user information for
          105 (or about 22 percent) of the 488 laptops we reviewed.

         Twenty-four laptops included in the inventory and selected for review could not
          be accounted for.17

         The SEC’s procedures for sharing information about lost or stolen laptops were
          inadequate.

These weaknesses existed because personnel did not always understand their roles
and responsibilities; and related policies and procedures were inadequate, had not been
effectively communicated to regional office personnel, and were not consistently
followed. As a result of our testing, we questioned the reliability of the SEC’s IT
inventory and estimated that it may reflect incorrect location and/or user information for
over 1,000 laptops, or nearly one-third of the 3,601 assets assigned to the locations we
reviewed. Furthermore, we estimated that as many as 202 laptops assigned to the

16
     OMB Circular A-123, p. 7.
17
  We considered a laptop “accounted for” if: (1) we physically observed the laptop; (2) the person in
possession of the laptop provided correct identifying information by email; or (3) an SF-120, Report of
Excess Personal Property, was provided for the laptop.




REPORT NO. 524                                       7                                SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                                    OFFICE OF INSPECTOR GENERAL


locations we reviewed may be unaccounted for. By not ensuring that inventory records
are accurate and that all laptops are accounted for, the SEC may be unaware of lost or
stolen laptops. In the event that lost, stolen, or otherwise unaccounted-for laptops are
not protected by encryption software, which we reported as a finding in our May 2014
Review of the SEC’s Practices for Sanitizing Digital Information System Media (Report
No. 521), the SEC is at risk for the unauthorized release of sensitive, nonpublic
information.

The SEC’s IT Inventory Contained Incorrect Information. According to SEC policy,
AMB and IT Service Desk personnel update the SEC’s IT inventory,18 and ensure that
laptops are managed according to sensitive property requirements. Regional office IT
Specialists are also responsible for keeping the AMB informed and updating the ITSM
system. We determined that AMB staff received laptops and added them to the
inventory.19 However, we reviewed the SEC’s inventory records and selected a
statistical sample of 244 laptops and a judgmental sample of an additional 244 laptops
(for a total of 488 laptops reviewed)20 and determined that SEC personnel had not
ensured that the inventory contained accurate information.

For example, 921 laptops in the inventory were reported as assigned to the SEC’s
Operations Centers, which the SEC closed in October 2013. When asked why assets
were still assigned to the Operations Center although they had been moved to the
SEC’s headquarters or other facilities, AMB personnel stated that OIT management
decided not to update the assets’ location in the ITSM system until personnel complete
the agencywide inventory initiated in April 2014. The inventory is expected to be
complete by the end of 2014. We also noted that the inventory did not specify a
location for another 81 laptops.

In addition, we determined that the inventory included incorrect location information for
82 (or about 17 percent) of the 488 laptops included in our sample. Of the 82 laptops
we reviewed with incorrect location information, 34 were identified through statistical
sampling methods, as shown in Table 2, and the remaining 48 were identified through
judgmental sampling, as shown in Table 3. In some instances, the discrepancies were

18
   SECR 09-02 4-8 OIT Inventory Procedures states, “The AMB Branch Chief shall prescribe the
frequency and types of inventories to be performed.” AMB staff told us that IT Service Desk personnel
update inventory records, including the records for laptops, when the status of each asset changes (i.e.,
when the asset is released to a user, disposed of, etc.). In addition, the AMB performs biennially
inventories and updates the ITSM system as necessary at that time.
19
  To assess the AMB’s controls over receiving laptops and adding them to the ITSM inventory, we
selected a judgmental sample of 30 laptops received as recorded in the AMB’s receiving log and
compared supporting information to the ITSM inventory and found no exceptions. We also noted that
receiving operations are witnessed by security personnel.
20
  We selected the statistical sample from the SEC’s inventory records and visited the SEC’s
headquarters, the ARO, the DRO, and the NYRO to verify each asset’s existence and the accuracy of the
recorded information (referred to as existence testing). While performing existence testing, we
judgmentally selected laptops found at each location and traced them back to the inventory records to
determine whether the records were accurate and complete (referred to as completeness testing).
Appendix I further describes our sampling methodology.




REPORT NO. 524                                       8                                SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                                    OFFICE OF INSPECTOR GENERAL


a matter of wrong room numbers in the same building. In others, the assets were found
in different SEC facilities. For example, according to the inventory, one laptop should
have been located at the SEC’s headquarters but was found in the Chicago Regional
Office. Another laptop that should have been located at the NYRO was found at the
SEC’s headquarters.

We also determined that end user information included in the inventory was incorrect for
a total of 105 of the 488 laptops included in our sample (or about 22 percent). As
shown in Tables 2 and 3, respectively, 50 of the laptops with incorrect end user
information were identified through statistical sampling methods and another 55 were
identified through judgmental sampling. For example, in one instance the inventory
showed that a laptop was “Released to customer” although it had been slated for
disposal.

In some cases, both location and user information were incorrect.21 For example, the
inventory showed that one laptop was assigned to a user at the NYRO. However, using
the SEC’s employee directory and Computrace®, we determined that both the user and
the laptop were at the Miami Regional Office, and the laptop had been assigned to
another user.

Finally, in at least one case, the basic asset information included in the SEC’s inventory
was incorrect. The laptop was assigned to a user at the SEC’s headquarters but was
incorrectly identified in the ITSM system as a monitor.

Because of the inaccuracy of the agency’s IT inventory records, time-consuming and
extraordinary efforts were required to locate or account for some laptops in our review.
Staff had to examine local inventory records, search through boxes and storage areas
containing laptops scheduled for disposal, and request tracking using RF Code ™ and
Computrace®. In addition, when we projected the results of our statistical sample to the
total population of the sample, as shown in Table 2, we estimated that the SEC’s IT
inventory may reflect incorrect location and/or user information for over 1,000 laptops,
or nearly one-third of the 3,601 assets assigned to the locations we reviewed. Although
we cannot project the results of our judgmental sample, shown in Table 3, we believe
the testing results support the conclusion that the SEC’s IT inventory records contained
inaccurate information.




21
   We determined that the inventory records included both incorrect location information and incorrect
user information for 6 of the sampled laptops from the SEC’s headquarters, 15 of the sampled laptops
from the ARO, 2 of the sampled laptops for the DRO, and 8 of the sampled laptops for the NYRO.




REPORT NO. 524                                      9                                SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                                    OFFICE OF INSPECTOR GENERAL


Table 2. Statistical Sampling: Summary of Existence Testing Results and
Projections of Incorrect IT Inventory Information by Location
                    Number of Sampled
                                              Statistical                                    Projection
        SEC           Laptops with                          Percentage      Population
                                               Sample                                            to
      Location           Incorrect                           Incorrect        Size
                                                 Size                                       Population22
                       Information
                    Incorrect
                                       13                      17.56%                            491
                    Location
     Headquarters                                 74                            2,795
                    Incorrect End
                                       12                      16.21%                            453
                    User

                    Incorrect
                                       12                      21.42%                               26
                    Location
        ARO                                       56                             120
                    Incorrect End
                                       21                      37.50%                               45
                    User

                    Incorrect
                                        8                      15.38%                               18
                    Location
        DRO                                       52                             118
                    Incorrect End
                                        4                       7.69%                                 9
                    User

                    Incorrect
                                        1                       1.61%                                 9
                    Location
        NYRO                                      62                             568
                    Incorrect End
                                       13                      20.97%                            119
                    User

                    Total with
                    Incorrect
                    Location           34                                                        544
                    Information
        Total                                     244                           3,601
                    Total with
                    Incorrect End
                    User               50                                                        626
                    Information
Source: OIG generated.



22
  We are 90 percent confident that the number of laptops with incorrect location information at the
locations reviewed is as follows:
    - between 455 (lower limit) and 527 (upper limit) for the SEC’s headquarters;
    - between 24 (lower limit) and 28 (upper limit) for the ARO;
    - between 17 (lower limit) and 19 (upper limit) for the DRO; and
    - between 8 (lower limit) and 10 (upper limit) for the NYRO.
We are 90 percent confident that the number of laptops with incorrect end user information at the
locations reviewed is as follows:
    - between 421 (lower limit) and 485 (upper limit) for the SEC’s headquarters;
    - between 40 (lower limit) and 50 (upper limit) for the ARO;
    - between 8 (lower limit) and 10 (upper limit) for the DRO; and
    - between 109 (lower limit) and 129 (upper limit) for the NYRO.




REPORT NO. 524                                      10                                 SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                             OFFICE OF INSPECTOR GENERAL


      Table 3. Judgmental Sampling: Summary of Completeness Testing Results
      and Incorrect IT Inventory Information by Location
                                                           Judgmental
                          Number of Sampled Laptops                       Percentage
       SEC Location                                          Sample
                           with Incorrect Information                      Incorrect
                                                              Size
                          Incorrect Location          17                     22.97%
        Headquarters                                           74
                          Incorrect End User          6                      8.11%

                          Incorrect Location          21                     37.50%
            ARO                                                56
                          Incorrect End User          23                     41.07%

                          Incorrect Location          1                      1.92%
            DRO                                                52
                          Incorrect End User          4                      7.69%

                          Incorrect Location          9                      14.52%
            NYRO                                               62
                          Incorrect End User          22                     35.48%

                          Total with Incorrect
                                                      48
                          Location
            Total                                             244
                          Total with Incorrect
                                                      55
                          End User
      Source: OIG generated.

Some Laptops Could Not Be Accounted For. Although most of the 244 laptops from
our statistical sample and existence testing procedures were found, 24 could not be
located, including 11 from the ARO and 8 from the DRO. The 19 assets from the ARO
and DRO were reported to have been returned to the SEC’s headquarters for disposal;
however, OIT personnel in headquarters could not find the laptops or provide an SF-
120, Report of Excess Personal Property, showing that the laptops had been disposed
of. When asked about these 24 laptops, OIT officials stated that they are conducting a
biennial IT inventory throughout the SEC regional offices and headquarters. The
inventory is expected to be completed by the end of 2014. OIT personnel stated that
this ongoing agencywide inventory will enable them to locate assets that are not on-line
and cannot be discovered electronically.

Based on the results of our testing, we estimated that as many as 202 laptops assigned
to the locations we reviewed may be unaccounted for. Table 4 summarizes and
projects the unaccounted-for laptops in our statistical sample by location.




REPORT NO. 524                                   11                          SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                                     OFFICE OF INSPECTOR GENERAL


Table 4. Statistical Sampling: Summary and Projections of Unaccounted-for
Laptops by Location
                     Number of
                      Sampled           Statistical         Percentage
        SEC                                                                 Population       Projection to
                      Laptops            Sample            Unaccounted
      Location                                                                 Size          Population23
                    Unaccounted            Size                 for
                        for
     Headquarters          4                74                5.41%            2,795              151

        ARO               11                56               19.64%             120                24

        DRO                8                52               15.38%             118                18

        NYRO               1                62                1.61%             568                 9

        Total             24                244                                3,601              202
Source: OIG generated.

In addition to identifying 24 laptops that were unaccounted for during our existence
testing, we also found during our completeness testing 4 laptops (1 at each SEC facility
reviewed) in the custody of end users, although the assets were not recorded in the
ITSM system.

Procedures for Sharing Information About Lost or Stolen Laptops Were
Inadequate. We interviewed CSIRC staff and determined that, when a laptop is lost or
stolen, the SEC’s procedures require end users to complete a Lost/Theft form and
report the loss or theft to either the OIT or the designated IT Specialist. CSIRC
personnel then notify SEC senior management and the Department of Homeland
Security of a possible release of personally identifiable information, if appropriate.24
Subsequently, as part of their incident tracking and reporting process, CSIRC personnel
maintain information in their own incident management system, called ARCHER, and
notify AMB personnel of the lost or stolen device. However, CSIRC staff stated that
they do not have access to the RF Code™ or Computrace® systems for tracking,
locating, and recovering laptops, which may hinder their ability to respond to reports of
lost or stolen laptops. In addition, they are not responsible for updating ITSM.


23
   We are 90 percent confident the number of unaccounted-for laptops at the locations reviewed is as
follows:
     - between 144 (lower limit) and 158 (upper limit) for the SEC’s headquarters;
     - between 22 (lower limit) and 26 (upper limit) for the ARO;
     - between 17 (lower limit) and 19 (upper limit) for the DRO; and
     - between 8 (lower limit) and 10 (upper limit) for the NYRO.
24
   According to the Department of Homeland Security, when an individual gains logical or physical
access, without permission, to a Federal agency network, system, application, data, or other resource
(i.e., a laptop) the Department must be notified within 1 hour of discovery or detection. Agencies notify
the Department of Homeland Security through the United States Computer Emergency Readiness
Team’s web-based system.




REPORT NO. 524                                        12                               SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                               OFFICE OF INSPECTOR GENERAL


To verify internal reporting to the AMB, we requested a list of lost or stolen items
reported to the CSIRC between October 1, 2011, and March 31, 2014. Eighteen of the
reported incidents involved laptops. AMB staff confirmed that they were notified of the
18 incidents; however, they could not determine whether 14 of the 18 laptops had been
recovered because CSIRC personnel did not provide an updated status of the laptops.
Additionally, AMB staff stated that they can flag an asset in the ITSM system as lost or
stolen, but they do not know if a regional office user has been issued a new laptop. We
concluded that CSIRC and AMB personnel do not always share information or
periodically reconcile their separate inventories to ensure that (1) all responsible parties
know the status of laptops that are reported as lost or stolen, and (2) the IT inventory is
as accurate as possible.

Lack of Clear Roles and Responsibilities, Adequate Policies and Procedures, and
Effective Communication of the Agency’s Approach to IT Inventory Management

The weaknesses that we observed existed, in part, because the OIT’s policies and
procedures did not clearly define roles and responsibilities to ensure that the laptop
inventory (or the IT inventory in general) is consistently updated with current and correct
information. Further, OIT policies and procedures had not been effectively
communicated to the responsible parties, including staff located in the regional offices,
and are not consistently followed throughout each asset’s lifecycle.

While the SEC’s policies and procedures identify roles and responsibilities for laptop
inventory management, our fieldwork found inconsistencies with SEC Administrative
Regulation, SECR 09-02. This regulation states that accountability for laptops is
delegated to directors and office heads with the AMB providing general oversight.
However, we found that accountability for laptops is centralized within the AMB, with the
Service Desk and IT Specialists supporting the AMB’s accountability efforts.
Additionally, although the AMB has developed 11 different operating procedures about
accountability for IT assets (including laptops),25 only 6 of the 11 procedures contain
guidance on roles and responsibilities for updating the ITSM system, and we
determined that such guidance was often unclear. For example, the Maintenance,
Repair, and Return Material Authorization Procedure does not specifically describe the
objective of the AMB or state the fields within the ITSM system that should be updated.

To gain a complete understanding of the SEC’s roles and responsibilities for updating
the agency’s IT inventory, we interviewed personnel from the AMB, the Service Desk,
the CSIRC, directors and office heads, and the IT Specialists located at the SEC’s
headquarters and regional offices. These discussions were necessary because the
agency’s written operating procedures did not sufficiently establish the roles and
responsibilities in practice across the agency.

In addition, during our visits to the ARO, DRO, and NYRO, we inquired about the
policies and procedures that the regional office IT Specialists use to account for assets

25
  See Appendix II. Federal Laws and Guidance and SEC Administrative Regulations, Policies, and
Procedures.




REPORT NO. 524                                  13                              SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                           OFFICE OF INSPECTOR GENERAL


and to maintain control over their office’s laptop inventory. None of the five IT
Specialists in the three regional offices that we visited were aware of the agency’s
written requirements for IT asset management or inventory control, including SECR 09-
02. Although we were informed by OIT staff at the SEC’s headquarters that regional IT
Specialists are responsible to know and adhere to these policies and procedures, the
Specialists informed us that they follow their own procedures for tracking laptops
throughout their lifecycles. Finally, although regional IT Specialists manage their
office’s IT asset inventories, they are primarily concerned with minimizing down-time for
local users. Two of the regional IT Specialists that we interviewed said they never
updated the ITSM system. The remaining three regional IT Specialists that we
interviewed informed us that they updated the system only when an asset’s status
change was permanent (i.e., when an individual was issued a new laptop). We also
found that regional IT Specialists performed local inventories and maintained their own
sets of records that reflected changes in laptops’ locations and end users. However,
they did not report such changes to AMB staff or ensure that the ITSM system was
updated.

Conclusion
Although the SEC addressed the OIG’s prior recommendations about laptop
accountability and has policies and procedures for safeguarding laptops throughout
their lifecycles, we identified needed improvements in both its IT inventory program and
its controls over laptops. Inaccurate inventory records required personnel to engage in
time-consuming and extraordinary efforts to locate or account for the SEC’s assets.
Staff had to examine local inventory records, search through boxes and storage areas
containing laptops scheduled for disposal, and request tracking using RF Code ™ and
Computrace®. While most laptops we reviewed were found, not all were accounted for.
In addition, we found that the ITSM system did not reflect the correct status of several
laptops, and several laptops were not included in the ITSM system or were incorrectly
identified in the system. As a result of our testing, we questioned the reliability of the
SEC’s IT inventory and estimated that the inventory reflected incorrect location and/or
user information for over 1,000 laptops, or nearly one-third of the 3,601 assets assigned
to the locations we reviewed. Furthermore, we estimated that as many as 202 laptops
assigned to the locations we reviewed may be unaccounted for. The IT inventory was
also unreliable because of inadequate follow-through and sharing of information about
lost or stolen laptops. Specifically, AMB staff were unable to provide the current status
of certain laptops because of a lack of information from CSIRC personnel.

By not ensuring that inventory records are accurate and that all laptops are accounted-
for, the SEC is not consistently safeguarding sensitive assets and may be unaware of
laptops that have been lost or stolen. In addition to losing the asset itself, lost, stolen,
or otherwise unaccounted-for laptops that are not protected by encryption software
create a risk for unauthorized release of sensitive, nonpublic information. As we
reported in our May 2014 Review of the SEC’s Practices for Sanitizing Digital




REPORT NO. 524                               14                            SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                                   OFFICE OF INSPECTOR GENERAL


Information System Media (Report No. 521),26 laptop hard drives that were in use
between 2010 and 2013 – after the agency began requiring full disk encryption27 – were
not encrypted and, in some cases, contained large amounts of nonpublic information,
including personally identifiable information. Consequently, some of the laptops that are
currently unaccounted for may have unencrypted hard drives. If they have been lost or
stolen, the SEC’s nonpublic information could be compromised.

The OIT is undertaking an agencywide IT inventory, which includes laptops, and
expects to complete the inventory by the end of 2014. While this is a good first step,
additional actions are needed to address the control weaknesses we observed and to
ensure that the SEC maintains an accurate laptop inventory in the future.

Recommendations, Management’s Response, and Evaluation of
Management’s Response
To improve the SEC’s controls over laptops, the Office of Information Technology
should implement the following recommendations:

Recommendation 1: Revise and communicate to all responsible parties, including
regional office personnel, comprehensive procedures for maintaining inventories of
laptop computers, to include (a) clearly defined roles and responsibilities,
(b) management’s expectations for maintaining an accurate inventory, and (c) guidance
on when inventory updates are required.

     Management’s Response. The Office of Information Technology concurred with
     the recommendation and will review, revise as appropriate, and disseminate
     enhanced policy and comprehensive procedures on property accountability and
     reporting, with specific emphasis on controls associated with laptop computers.
     Further, the Office will train responsible parties, including regional office personnel,
     on property management recordkeeping requirements, timeframes, and procedures.
     In addition, OIT will communicate expectations to all stakeholders regarding
     maintaining accurate inventory records, and will conduct “spot check” reconciliations
     of property records to laptop assets to assess compliance. Management’s complete
     response is reprinted in Appendix III.

     OIG’s Evaluation of Management’s Response. Management’s proposed actions
     are responsive; therefore, the recommendation is resolved and will be closed upon
     verification of the action taken.



26
  U.S. Securities and Exchange Commission, Office of Inspector General, Report No. 521, Review of the
SEC’s Practices for Sanitizing Digital Information System Media, May 30, 2014. The report’s executive
summary can be accessed at: http://www.sec.gov/oig/reportspubs/521.pdf.
27
   According to SEC OIT Implementing Instruction II 24-04.04.05 (01.1), Information Encryption within the
SEC, April 6, 2010, the SEC requires full disk encryption on all laptop computers before they are issued
to end users.




REPORT NO. 524                                     15                                SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                      OFFICE OF INSPECTOR GENERAL


Recommendation 2: Ensure that personnel in the Computer Security Incident
Response Center have the ability to search for and track unaccounted-for laptops using
available resources such as RF Code™ and Computrace® and that they provide to the
Office of Information Technology Asset Management Branch personnel periodic status
updates on laptops that have been reported lost or stolen so that the inventory can be
updated as necessary.

   Management’s Response. The Office of Information Technology concurred with
   the recommendation and will address the theme of the recommendation as a
   component of the corrective actions to address Recommendation 1. The Office
   recognizes the need for more systematic information-sharing among appropriate
   parties (such as the Computer Security Incident Response Center, Office of
   Information Technology Asset Management Branch, Office of Support Operations’
   Office of Security Services, and OIG Office of Investigations) in the case of
   potentially lost or stolen laptops. Management’s complete response is reprinted in
   Appendix III.

   OIG’s Evaluation of Management’s Response. Management’s proposed actions
   are responsive; therefore, the recommendation is resolved and will be closed upon
   verification of the action taken.

Recommendation 3: Complete its ongoing agencywide inventory. Based on the result
of the agencywide inventory, promptly update its inventory system to ensure that all
assets are included in the system accurately, and report to the Office of Information
Technology’s Computer Security Incident Response Center unaccounted-for laptops.

   Management’s Response. The Office of Information Technology concurred with
   the recommendation and, upon completion of the “wall-to-wall” inventory in October
   2014, will update the inventory system as appropriate. Management’s complete
   response is reprinted in Appendix III.

   OIG’s Evaluation of Management’s Response. Management’s proposed actions
   are responsive; therefore, the recommendation is resolved and will be closed upon
   verification of the action taken.




REPORT NO. 524                            16                          SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                       OFFICE OF INSPECTOR GENERAL



Finding 2: Lack of Segregation of Duties and Compensating
Controls in the ITSM System
To help prevent misappropriation of Federal assets, OMB Circular A-123 requires
Federal managers to establish effective controls, such as segregation of duties.28
Contrary to this principle, at least 88 AMB employees and contractors that have access
to and custody of laptops also have the ability to delete asset records from the ITSM
inventory database.

During our audit, we requested a list of user accounts and permissions for RF Code™,
Computrace®, and the ITSM system. We determined that RF Code™ has one user and
Computrace® had two users with permissions to add or delete assets from the systems.
Furthermore, both systems included audit trails that record the activities of each user.
However, we found that at least 88 AMB employees and contractors have the ability to
delete records from the ITSM system and have physical access to laptops. Additionally,
the ITSM system does not have an audit trail that tracks when an employee adds or
deletes an asset from the inventory database or otherwise modifies its status.

According to AMB staff, the ITSM system automatically assigns delete rights to all users
designated as system administrators and members of the AMB. AMB officials stated
that updating the system to reduce the number of users who can delete inventory
records would not be practical since the OIT plans to replace the system in fiscal year
2015.

Conclusion
The lack of segregation of duties and compensating controls in the ITSM system
creates opportunities for laptops to be misappropriated. For example, OIT personnel
who have permissions to delete assets from the ITSM system also have access to
areas where laptops are stored. These individuals could simply take a laptop and
delete it from the inventory, without the knowledge of OIT management.

Recommendation, Management’s Response, and Evaluation of
Management’s Response
To improve controls over the SEC’s information technology inventory, the Office of
Information Technology should implement the following recommendation:

Recommendation 4. Ensure that the system selected to replace the SEC’s Information
Technology Service Management system includes segregation of duty controls,
minimizes the number of user accounts that have permission to delete assets from the
inventory, and includes an audit trail.



28
     OMB Circular A-123, p. 8.




REPORT NO. 524                             17                          SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                        OFFICE OF INSPECTOR GENERAL


   Management’s Response. The Office of Information Technology concurred with
   the recommendation and is working with the Office of Acquisitions to procure an
   equipment management tool. OIT expects to begin implementing the new system
   early in fiscal year 2015. As the new tool is implemented, the Office of Information
   Technology will ensure that it is configured to appropriately segregate duties, limit
   ability to delete asset records to the minimal number of personnel required to
   maintain accurate inventory records, and maintain an electronic audit trail of all
   changes to property records. Management’s complete response is reprinted in
   Appendix III.

   OIG’s Evaluation of Management’s Response. Management’s proposed actions
   are responsive; therefore, the recommendation is resolved and will be closed upon
   verification of the action taken.




REPORT NO. 524                             18                           SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                        OFFICE OF INSPECTOR GENERAL



                 Appendix I. Scope and Methodology

We conducted this performance audit from April through September 2014 in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Scope. The audit covered the period of October 1, 2011, to April 1, 2014, and
consisted of reviewing the SEC’s laptop inventory, including samples of laptops
assigned to the SEC’s headquarters, the ARO, the DRO, and the NYRO. The scope
also included an assessment of the SEC's processes and selected supporting
documentation. Specifically, the audit included a review of

      Federal guidance and agency policies and procedures for laptop computer
       inventorying and accountability;

      relevant internal controls;

      the SEC’s laptop inventory processes and organizational roles and
       responsibilities;

      the accuracy and completeness of the agency’s laptop inventory; and

      procedures for reporting and accounting for lost or stolen laptops.

Methodology. To determine whether the OIT had established policies, procedures,
and supporting documentation to properly identify, track, and safeguard the SEC’s
laptops throughout their lifecycles, we obtained and reviewed relevant asset
management and information security laws, regulations, policies, and procedures. In
addition, we conducted interviews with responsible officials at each location we
reviewed to gain an understanding of the OIT’s processes for maintaining control of
laptop computers.

To evaluate the SEC’s procedures for receiving laptops and adding them to the IT
inventory, we interviewed OIT personnel who were responsible for overseeing laptops.
We also toured the SEC headquarters’ mailroom and loading dock areas where all SEC
laptops are received. Finally, we selected a judgmental sample of 30 laptops received
as recorded in the AMB’s receiving log and compared supporting information to the
ITSM inventory.

To evaluate the SEC’s procedures for updating the status of laptops in the IT inventory
and to assess the IT controls over information systems used to track laptops, we




REPORT NO. 524                              19                          SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                                      OFFICE OF INSPECTOR GENERAL


performed existence and completeness testing29 of the laptops distributed to the SEC’s
headquarters, the ARO, the DRO, and NYRO. We developed and tested statistical and
judgmental samples using data from the ITSM system and our observations during
fieldwork performed at the locations included in the audit. We also selected a
judgmental sample of 11 laptops and reviewed the historical activity in ITSM associated
with each laptop.

To further meet our audit objectives, we evaluated the SEC’s procedures for reporting
lost or stolen laptops. We interviewed OIT staff responsible for tracking laptops
reported as lost or stolen and determined the disposition of assets reported missing
during the scope of the audit.

To determine whether the SEC effectively addressed prior recommendations for
corrective action from the OIG’s Inspection Report No. 441, Controls Over Laptops
(March 31, 2008), we reviewed recommendation closeout memoranda and discussed
the recommendations with OIT staff. We concluded that the OIG concurred with the
actions taken and closed all recommendations during fiscal year 2009.

Internal Controls. We obtained an understanding of the OIT’s internal controls over
laptops and assessed the internal controls in accordance with the “[Committee of
Sponsoring Organizations] Model of Internal Control.” For our review of internal
controls, we considered the following:

        Control Environment – We evaluated the SEC’s control environment related to
         laptops and determined that personnel at the ARO, the DRO, and NYRO did not
         receive the agency’s asset management and ITSM system training beyond the
         introductory sessions.

        Risk Assessment – We determined that a risk assessment of laptop inventory
         processes had not been conducted at the regional offices we visited. In addition,
         we observed that the regional office IT Specialists were primarily concerned with
         minimizing down-time for local users and not necessarily inventory management.

        Monitoring – We assessed the SEC’s relevant monitoring activities and
         determined that regional office IT Specialists periodically validated their own
         laptop inventory. However, the regional office IT Specialists provided their
         inventory listings to headquarters personnel only if requested.

        Control Activities – We reviewed the SEC’s control activities related to laptops
         and found that regional laptops were properly secured. Unissued laptops were
         either stored in locked closets or IT work rooms with card reader access.


29
  “Existence testing” verified that a laptop included in the ITSM system actually existed and was in the
possession of the person and at the location identified in the ITSM system. “Completeness testing”
verified that a laptop found in the possession of a person at a particular location was correctly recorded in
the ITSM system.




REPORT NO. 524                                       20                                 SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                         OFFICE OF INSPECTOR GENERAL


      Information and Communication – We evaluated the SEC’s information and
       communication activities regarding controls over laptops and determined that
       regional office IT staff were unfamiliar with OIT guidance concerning asset
       management. Rather, they followed their own policies, which included creating
       and maintaining local inventories instead of using the agency’s ITSM system.

Overall, we determined that the OIT’s IT inventory program and controls over its laptops
need improving, as discussed in this report.

Computer-processed Data. The Government Accountability Office’s (GAO) Assessing
the Reliability of Computer-Processed Data (GAO-09-680G, July 2009) states that “data
reliability refers to the accuracy and completeness of computer-processed data, given
the uses they are intended for. Computer-processed data may be data (1) entered into
a computer system or (2) resulting from computer processing.” Furthermore, GAO-09-
680G provides definitions for “reliability,” “completeness,” and “accuracy.”

      “Reliability” means that data are reasonably complete and accurate, meet your
       intended purposes, and are not subject to inappropriate alteration.

      “Accuracy” refers to the extent that recorded data reflect the actual underlying
       information.

      “Completeness” refers to the extent that relevant records are present and the
       fields in each record are populated appropriately.

We used computer-processed data extracted from the ITSM system. Testing performed
on the data helped us determine the data’s completeness and accuracy. By testing the
laptop receiving log and interviewing AMB receiving staff, we determined that laptops
were added to the ITSM system as they were received; therefore, the inventory was
complete. However, through testing of the laptop inventory, we determined that the
user and location information in the ITSM system was inaccurate, as discussed in this
report.

Using GAO’s definition of “reliability” and the results of our testing, we concluded that
laptop location and end user information in the ITSM system was inaccurate and,
therefore, unreliable. Our results demonstrate that OIT staff did not consistently update
within the ITSM system each asset’s assigned SEC facility, user, user location, and
current status (i.e., lost, stolen, or disposed).

Sampling Methodology. To accomplish our objectives, we selected from the SEC’s IT
inventory a statistical sample of 244 laptops. We also selected a judgmental sample of
an additional 244 laptops, for a total of 488 laptops reviewed. We chose to select
assets assigned to the SEC’s headquarters and the NYRO because the majority of SEC
laptops were assigned to these facilities. In addition, we chose to include laptops
assigned to the ARO and the DRO to ensure that representative regional office
operations and activities were included in our review. According to the ITSM system, as




REPORT NO. 524                              21                           SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                                   OFFICE OF INSPECTOR GENERAL


of April 1, 2014, about 65 percent of the SEC’s total population of 5,525 laptops were
assigned to the locations selected for review.

    Statistical Sampling. Using the data included in the ITSM system as of April 1, 2014,
we developed a stratified statistical sample for the locations we reviewed. The sample
size for each location was determined using the following parameters and EZ-Quant
statistical software30:

      a) a presumed error rate of 5 percent;

      b) a desired maximum precision range of 10 percent; and

      c) a desired confidence level of 90 percent.

After the sample size was determined, we selected items from the inventory for testing
using EZ-Quant’s random number generator. The total population at the locations
reviewed was 3,601 laptops. A statistical sample of 244 laptops from the SEC’s IT
inventory records was selected to test as follows:

         74 of the 2,795 laptops assigned to the SEC’s headquarters;31

         56 of the 120 laptops assigned to the ARO;

         52 of the 118 laptops assigned to the DRO; and

         62 of the 568 laptops assigned to the NYRO.

We visited the locations selected to verify each asset’s existence and the accuracy of
the information recorded in the inventory (referred to as existence testing). As
discussed in this report, we projected the results of our tests to the laptop populations at
each location we visited to determine how many errors could be anticipated. We also
used GAO guidance on statistical sampling to calculate the sampling error for each
projection.32

    Judgmental Sampling. While performing existence testing, we judgmentally selected
laptops found on-site and traced them back to the inventory records to determine

30
  EZ-Quant is a suite of three statistical applications for performing statistical sampling, regression
analysis, and improvement curve analysis. The Defense Contract Audit Agency developed and tested it
for use in its audit processes.
31
   Initially, our headquarters sample included 21 laptops from the Operations Center. However, since OIT
had not updated the location information for any of the laptops assigned to the Operations Center, we
removed these assets from our sample and select 21 additional laptops from the SEC’s headquarters
population using the inventory dated April 1, 2014. We used EZ-Quant to verify that the sample size did
not change, even though the tested population was reduced. The sampling parameters and our
methodology for using EZ-Quant’s random number generator for sample selection, verifying the existence
of the laptops, and projecting our results to the population remained unchanged.
32
     GAO, Using Statistical Sampling, GAO/PEMD-10.1.6, Revised May 1992.




REPORT NO. 524                                     22                               SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                                 OFFICE OF INSPECTOR GENERAL


whether the records were accurate and complete (referred to as completeness testing).
Specifically, we judgmentally selected an additional 74, 56, 52, and 62 laptops (for a
total of 244) found at the SEC’s headquarters, the ARO, the DRO, and the NYRO,
respectively.

Prior Coverage. In March 2008, the Office of Inspector General issued the inspection
report Controls over Laptops, Report No. 441.33 The report contained three findings
related to the SEC’s policy, inventory, and accountability for laptops. Specifically, we
found that the SEC had not identified laptops as sensitive property and annual
inventories of sensitive property were not performed. Also, we could not determine the
total number of laptops within the SEC and determined that OIT’s AMB did not have
appropriate controls over laptops and was unable to trace ownership to specific SEC
employees. The OIG attributed this issue to the AMB’s failure to consistently complete
supporting property transaction forms.

We made five recommendations for corrective action, which are summarized below:

          A – Revise draft policy to identify sensitive property.

          B – Develop a method of accountability for sensitive property that would
              ensure an accurate accounting of laptops.

          C – Complete a full inventory of laptops to establish a baseline.

          D – Establish clear accountability for laptops including documenting the SEC
              employees who are issued and who receive equipment.

          E – Create a form to account for sensitive property.

Although the OIG concurred with the actions taken to address the recommendations
and closed the recommendations during fiscal year 2009, we determined that the SEC’s
inventory over laptops is still inaccurate, as stated in this report.




33
   U.S. Securities and Exchange Commission, Office of Inspector General, Inspection Report No. 441,
Controls Over Laptops, March 31, 2008. The report can be accessed at:
http://www.sec.gov/oig/reportspubs/ir441.pdf.




REPORT NO. 524                                    23                              SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                       OFFICE OF INSPECTOR GENERAL



       Appendix II. Federal Laws and Guidance and SEC
          Administrative Regulations, Policies, and
                         Procedures

We reviewed the following documents during the course of our fieldwork:

Federal Laws and Guidance:

      Federal Manager’s Financial Integrity Act of 1982, Pub. L. 97-255.

      GAO, Using Statistical Sampling, GAO/PEMD-10.1.6, Revised May 1992.

      GAO, Assessing the Reliability of Computer-Processed Data, GAO-09-680G,
       July 2009.

      OMB Circular A-123 Revised, Management’s Responsibility for Internal Control,
       December 21, 2004.

      OMB Circular A-130 Revised, Transmittal Memorandum #4, Management of
       Federal Information Resources, November 28, 2000.

SEC Administrative Regulations, Policies, and Procedures:

      SEC Administrative Regulation SECR 09-02, Rev. 1, Property Management
       Program, September 11, 2012.

      SEC Administrative Regulation SECR 09-03, Report of Survey Program,
       March 18, 1996.

      SEC Administrative Regulation SECR 23-2a, Safeguarding Nonpublic
       Information, January 21, 2000.

      SEC SOP-206-1309, AMB Reconciliation of Delphi-RF Code and Delphi-ITSM
       Standard Operating Procedure, June 12, 2013.

      SEC AMB, AMB Ship Hardware Procedure (Draft), July 31, 2013.

      SEC AMB WI, Auditing IMACs with CoR, November 8, 2013.

      SEC AMB WI, Conducting Spot Inventories, November 8, 2013.

      SEC ISS-AM-PD-0018, Release IT Hardware Asset Procedure, July 31, 2013.

      SEC ISS-AM-PD-0022, AMB Receiving Procedure (Draft), July 12, 2013.




REPORT NO. 524                             24                          SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                    OFFICE OF INSPECTOR GENERAL


      SEC ISS-AM-PD-0022, Maintenance, Repair, and Return Material Authorization
       Procedure (Draft), July 29, 2013.

      SEC ISS-AM-PD-0025, Retire IT Hardware Asset Procedure, July 31, 2013.

      SEC ISS-AM-PD-0036, Perform Inventory Audit Procedure, February 5, 2010.

      SEC ISS-AM-PD-0038, Manage Stock Levels Procedure, March 23, 2010.

      SEC ISS-PM-WI-0002 v.0.2, Manage Asset Record, September 14, 2010.

      Securities and Exchange Commission, Office of Information Technology,
       Security Operations, SEC Incident Response Capability Handbook, April 2014.




REPORT NO. 524                            25                        SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION        OFFICE OF INSPECTOR GENERAL



              Appendix III. Management Comments




REPORT NO. 524                            26            SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION        OFFICE OF INSPECTOR GENERAL




REPORT NO. 524                            27            SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                    OFFICE OF INSPECTOR GENERAL



        Appendix IV. OIG Response to Management
                       Comments

We are pleased that the OIT concurred with all four recommendations for corrective
action. Management’s proposed actions are responsive to the recommendations;
therefore, the recommendations are resolved and will be closed upon completion and
verification of appropriate corrective action. Full implementation of our
recommendations should strengthen the SEC’s inventory controls over its laptop
computers.




REPORT NO. 524                            28                        SEPTEMBER 22, 2014
U.S. SECURITIES AND EXCHANGE COMMISSION                        OFFICE OF INSPECTOR GENERAL


To Report Fraud, Waste, or Abuse, Please Contact:
  Web:               www.reportlineweb.com/sec_oig

  E-mail:            oig@sec.gov

  Telephone:         (877) 442-0854

  Fax:               (202) 772-9265

  Address:           U.S. Securities and Exchange Commission
                     Office of Inspector General
                     100 F Street, N.E.
                     Washington, DC 20549-2736


Comments and Suggestions
  If you wish to comment on the quality or usefulness of this report or suggest ideas for
  future audits, please contact Rebecca Sharek, Deputy Inspector General for Audits,
  Evaluations, and Special Projects at sharekr@sec.gov or call (202) 551-6061.
  Comments, suggestions, and requests can also be mailed to the attention of the
  Deputy Inspector General for Audits, Evaluations, and Special Projects at the
  address listed above.




REPORT NO. 524                             29                           SEPTEMBER 22, 2014
